Nos. 19-1257 & 19-1258
IN THE

Supreme Court of the United States
MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS
ARIZONA ATTORNEY GENERAL, ET AL.,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
ARIZONA REPUBLICAN PARTY, ET AL.,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,

Petitioners,
Respondents.
Petitioners,
Respondents.

On Petitions for Writs of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Of United States
Senators Ted Cruz, Marsha Blackburn, John Cornyn, Tom Cotton, James M. Inhofe, James
Lankford, And Mike Lee As Amici Curiae In Support Of Petitioners contains 5972 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 1, 2020
/s/ Scott A. Keller
Scott A. Keller
Counsel of Record
BAKER BOTTS L.L.P.
700 K Street, N.W.
Washington, DC 20001
(202) 639-7700
scott.keller@bakerbotts.com
Counsel for Amici Curiae

